                                              UNITED STATES OF AMERICA
                                      AGENCY FOR INTERNATIONAL DEVELOPMENT
                            OFFICE OF THE REGIONAL INSPECTOR GENERAL FOR WEST AFRICA

-
             STATES ADDRESS                                                          INTERNATIONAL        ADDRESS
            RIG DAKAR                                                                          RIG DAKAR
     AGENCY FOR INTERNATIONAL                                                            Cl” AMERICAN EMBASSY
-          DEVELOPMENT                                                                   B.P. 49 DAKAR SENEGAL
    WASHINGTON. D.C. 20521 - 2130                                                              WEST AFRICA


                                                               April 12, 1999

           Memorandum
-



-



-
                          Audit of the               Accounting Station Fiscal Year 1998 Financial Data,
                          Audit Report No. 7-64 1-99-005-F
-

           This memorandum is our audit report on the subject audit. We have considered your comments
-
           on the draft audit report and have included them in their entirety in Appendix II.

           This audit report     two recommendations. Based upon your comments and actions,
                          has made a Management Decision to address both recommendations. In
           accordance with US AID guidance, the Management Bureau’s Office of Management Planning and
           Innovation               will be responsible for determining when Final Action has occurred
           for Recommendation Nos. 1 and 2.

           I appreciate the cooperation and courtesy extended to my staff during the audit.


           Background
-

           Beginning in fiscal year 1996, the Government Management Reform Act (GMRA) requires
           federal agencies to complete audited financial statements each year covering all accounts and
           associated activities. These financial statements are to report the financial position and results
           of operations and provide               allowing Congress and the public to assess management
                       and stewardship of agency resources.
                                                                                                   -
          management is required to compile financial statements and supplemental information.
Management’s ability to develop and maintain adequate internal controls, accounting systems and
procedures to generate reliable financial statements will be critical to the success of            -
annual reporting. The audit of the                    accounting station is part of the audit of
        fiscal year 1998 financial statements to comply with procedures set forth in Office of
                                                                                                   -
Management and Budget (OMB) Bulletin No.

              is the accounting station for the following countries in which         conducts
programs: Nigeria. Cameroon, Sierra Leone, Ghana. Equatorial Guinea. Sao Tome
Liberia and the Central African Republic. As of September 30, 1998, accounting records
maintained at                indicated that it had obligated and expended in support of active     -
programs in these countries a total of approximately $235.9 million and X162.7 million.
respectively.


Audit Objectives
                                                                                                   -
The Office of Regional Inspector General in Dakar audited the                 accounting station
to answer the following questions:

Did the                 accounting station have documentation to support the disbursements made
in the fourth quarter of fiscal year 1998 and the balances of accruals and advances at September
30

Were the September      1998 balances reported in the                accounting station’s U-101
Report for appropriations         1 and           properly stated and adequately supported‘?

Appendix I describes the audit’s scope and methodology.                                            -



Audit Findings                                                                                     -

Did the               accounting station have documentation to support disbursements
made in the fourth quarter        year      and the balances           and advances                -
at September 30,

The                 accounting station had documentation to support disbursements made in the
fourth quarter of fiscal year 1998 and the balances of accrued expenditures and advances at
September 30. 1998: however, some accrued expenditures were underestimated and not
                                                                                                   -
adequately supported. In addition, there were two cases in which the oldest funded obligations
were not liquidated before newer funded obligations. These issues are discussed below.
                                                                                                   -



                                                                                                   -
    Accruals Underestimated and
    Not Adequately

                     did not accurately estimate its accrued expenditures at September 30.            We
-   found accrued expenditures for six obligations that were underestimated by more than         million.
              guidance requires that financial reports accurately reflect financial transactions and the
    results of operations. Under-accrued expenditures misstate the results of operations and
-   artificially        unliquidated obligations, thereby causing two problems: 1)              reported
    unliquidated obligations/commitments were larger than actual, and 2) the reported physical
    progress of programs was less than actual. This misstatement also diminished the statements’
-   usefulness as management tool. This occurred partially because of problems associated with
    the consolidation of accounting responsibilities at                       It also occurred because
    program officials did not have adequate procedures for estimating accrued expenditures and in
-   one instance, did not understand the mechanics of the procedure.

           Recommendation No. 1: We recommend                         develop and implement a
-
           plan and training course for program officers to enable them to better calculate and
           document accrued expenditures.
-
    Accrued expenditures represent costs               during a given period for goods received or
    services rendered, regardless of when cash payments’ are made or whether invoices have been
-   received. Accrued expenditures are used by management to measure the performance of
    programs. They are an important part of the accounting process and essential for the presentation
    of the complete financial position and results of operations. At the                   accounting
    station, accrued expenditures are particularly important because it has many programs which
    involve U.S.-based recipients who are paid by                          These disbursements, which
    are reported to                 by means of an advice of charge (AOC)‘. take a significant amount
    of time to arrive. and remain unrecorded until they are entered into the system by
    Therefore. proper recognition and reporting of substantial accrued expenditures are            to
    accurately          both unpaid services and unrecorded disbursements.

    Financial Management Bulletin, Part II - Bulletin No. 3 entitled “Project Accounting” requires
    accruals be computed for each project by commitment at the end of each quarter. The controller,
-   program officer and others directly involved in program implementation are specifically
    responsible for securing the           source data, and developing accrued expenditures each
    accounting period. The Bulletin states that the development of accurate and reliable accrued
    expenditures is management responsibility shared by the controller and the program officer.
    Also. the program officer has the responsibility to gather the documentation and information


                    accounting system,       payments are commonly              to   disbursements.

         An       represents   incoming         from outside       Mission which must be made to
                    long        program is completed; but obligated funding must be          for these incoming



                                                          3
                                                                                                                   -



                                                                                                                   -
           from outside the mission from which the accruals can be calculated. The program
officer. with the assistance of the program accountant, will determine the amounts to be accrued.
                                                                                                                   -
At September 30.         the                accounting station had recorded accrued expenditures
totalling          1.784 against 157 obligations/commitments. We selected sample of thirty of
                                                                                                                   -
these accruals totalling                  and found problems with inadequate supporting
documentation         computation errors. In six cases, program officers did not have adequate
documentation to support the computation of their accruals. making the audit process difficult
                                                                                                                   -
and more time consuming for both Mission and OIG personnel. Also. program officers did not
always confirm estimated expenditures with recipients, nor did they always use information that
     available to them. Consequently, the                 accounting station at fiscal year-end had
overstated its                           by $3.4 million as result of underestimating accrued
expenditures. as set forth in the following table.


                             Obligation No.                  Earmark                 Under
                                                            Control No.             Accrual
                                                                                                                   -


                    CA-64 1-O                                                           17.408                     -

                         1 -CA-00-97-00 160                                               1.425
                    64 1                                                                42.266                     -

                    CO-64 1 -C-00-98-00236                                             209.170

                   I 64 1                                                     I          20.46
                    Total
                                                                                                                   -



                                                                                                                   -



                                                                                                                   -


           this report       term               obligations” is defined   obligations less expenditures.

             to         procedures      incrementally                  programs, his           wits analyzed in
                     other obligations that were made under         same program:              O-G-00-4077,
                            19-G-00-4077.

              is    actual            control         used by     Mission to identify this earmark.

                                      for incrementally              programs, this                           in
conjunction with            control            1, which was made under         program.
                                                                                                                   -
                                                             4

-

    These under-accrued expenditures occurred because of number of reasons. First.
-   had just assumed the responsibility for being the accounting station for several other offices.
    This. combined with the evacuation of                     contributed to temporary breakdown
    in the control system. Specifically. the accountant for the               programs was new to
-                    and the program officer from                   was on evacuation status. Since
    then.                  has had time to assimilate its new responsibilities, the accountant for
                     has had to familiarize himself with the programs. and the program officer has
-   returned to                  Therefore, this situation should no longer be problem.

    A second cause was that not all program officials understood how the accrual process functioned.
-   One official stated that he thought that previous quarterly accruals that he had made were still
    in the system. He did not realize that accruals are reversed at the beginning of each successive
    reporting period. All program officers need to be thoroughly trained in estimating and inputting
-   accrued expenditures.

    A third reason for the condition was that program officials did not seem to use all of the
-
    information available to them and did not have standard procedures to use in estimating accruals.
    They did not routinely contact the recipients who were providing services and who would have
-
    had the most accurate estimate of expenditures to date. In one instance in which the program
    officer underestimated an accrual. we found that the recipient had already expended the entire
    amount of the grant as of June 30, 1998. three months prior to the fiscal year end. This could
-   have easily been verified with the recipient at the time of year-end accruals and an under-accrual
    avoided.

-   A final cause was that program officials did not have      documentation system whereby they
    could maintain record of past estimated expenditures and unrecorded disbursements which
    could then be easily updated for the next quarterly accrual. We found no program officer who
-   maintained an accrual file which could be referenced to support the September 30. 1998 accruals
    in our sample. Since                has large number of unrecorded disbursements due to the
    large number of U.S.-based recipients, it is extremely, important that program officials maintain
-   comprehensive documentation to support past accruals and to aide in the estimation of future
    accruals for both unpaid services and unrecorded disbursements.

-   The result of the above under-accrued expenditures was material misstatement of year-end
    accruals and the financial transactions and results of operations of the            accounting
    station. This misstatement inflated unliquidated obligations. thereby causing two problems: 1)
-             reported unliquidated obligations/commitments were larger than actual. and 2) the
    reported physical progress of projects/programs was less than actual. This diminished the
    usefulness of                   financial statements’      management tool.
-
                                                                                                       -
Older Obligations Not Always
           Prior to Newer
                                                                                                       -
In two instances,               did not liquidate older funded obligations before newer funded
obligations. as required by         guidance. This occurred because of the disruption in the
normal control system due to the transfer of additional accounting responsibilities to                 -
                   As a result, older funds were not liquidated, resulting in poor financial
management and increasing the risk of funds passing their expiration date and no longer being
                                                                                                       -
available for use.

       Recommendation No. 2: We recommend                         develop and implement a
                                                                                                       -
       plan to ensure that the oldest funded obligations are liquidated first.

Under obligating document CO-669-02 1 S-G-00-4080,                        recorded disbursements
against newer funding without first liquidating older funding for two unliquidated obligations
totalling          10. Earmark control number           (actual reference number) with year-end
balance of           10 and          control number ‘~620005 with year-end balance of $700,000         -
were obligated from fiscal years 1994 and 1996, respectively. However. on November 4, 1998,
the controller’s office signed public voucher for                    the disbursement for which
liquidated obligations funded from fiscal year 1997,’ leaving the fiscal year 1994 and 1996            -
funding still in the financial system.

          guidance requires that older funding be liquidated prior to newer funding for                -
incrementally funded obligations. Financial Management Bulletin - Part II - No. 14A. entitled
“Obligation Reviews at Missions,” requires that incrementally funded projects be disbursed on
a “first-in. first-out” basis. In all cases, payments are to be made from. and liquidate funds from,   -
the oldest funding source for incrementally funded obligations/commitments. This procedure is
necessary to avoid the possibility of older funds passing their expiration date and reverting to the
U.S. Treasury prior to being used.                                                                     -


Mission officials stated that this control weakness occurred because of temporary breakdown
                                                                         had been evacuated and        -
in the normal accounting internal control system.
               had just assumed responsibility as an accounting station for several other countries
in which             operated.      In addition, the accountant was new to
                                                                                                       -
                should review its accounting operations and develop and implement an appropriate
plan to address this weakness.
                                                                                                       -



                                                                                                       -



                                                                                                       -
                 No. 96690014                   control                        and         from
          code GCDX-97-2 1        13.
-

    Were the September 30,       balances reported in the           accounting station’s
-   U-101 report for appropriations 72X1021 and 72X1095 properly stated and adequately
    supported?

-   The September 30.         balances reported by the                  accounting station in the U- 1
    report    appropriations 72X 102 1 and 72X 1095 were properly stated and adequately supported.
    The                  accounting station had U- 101 reports       nineteen different appropriations.
-   We chose two appropriations (72X 102 and                    and verified the mathematical accuracy
    of their balances and. on a test basis, examined supporting documentation. Finding no errors
    deviations. we              that the September 30,         balances reported by the
-   accounting station in the U-      report for appropriations 72X 102 1 and 72X 1095 were properly
    stated and adequately supported.

-

    Management Comments and Our Evaluation
-
                   concurred with both audit recommendations. Regarding Recommendation No 1.
                   plans to complete the development of a training course for program officers to
    better enable them to prepare and document accrued expenditures by April 30,              The
    Mission anticipates having trained            and the six client Mission personnel by no later
    than July 3 1,
-
    Regarding Recommendation No 2,                    will develop and implement plan no later
    than April 30,         All Project Accountants will be trained to always liquidate the oldest
-   funded obligation by no later than May 3 1.       The entire pipeline for all seven client posts
    will be reviewed by May 3 1.            confirm that the oldest funded obligation has been
    liquidated first.
-



-



-



-



-



-




-
-

                                                                                    APPENDIX I
-                                                                                         Page 1 of 2




-
                                        SCOPE AND
                                       METHODOLOGY




    Scope

    We audited the operations of                     accounting station related to disbursements.
    advances, accrued expenditures, U-101 reports and related 1221 reconciliations. The audit was
    performed    part of the financial statement audit of       for fiscal year 1998. We conducted
    the audit, in accordance with generally accepted government auditing standards, at
                    offices in Accra, Ghana from September 1 through December 16, 1998.
-



-   Methodology

    This audit was             as part of the financial statement audit of       for fiscal year 1998.
-   We performed audit work at                     as one of ten selected sample missions worldwide,
    to enable                     to provide an opinion on the fairness of presentation of
    financial statements as required by GMRA. Operating units were selected using a random sample
-   based on statistical sampling techniques.

    To accomplish the audit objective, we selected transactions randomly using random number
-   tables. The sample size was determined by statistical sampling techniques based on a confidence
    level of      with a tolerable error rate of +/- 5%. Specifically we examined the supporting
    documentation for:
-
                 fifty disbursements totalling            which represents approximately 68 percent
                 of the total disbursements of             made in the fourth quarter of fiscal year
-
                 twenty advances totalling $248,375 which represents approximately 56 percent of
                 the total advances outstanding of $440,384 as of September 30.
-
                 thirty accruals totalling            which represents approximately 78 percent of
                 the total accruals of       1.784 as of September 30.
                 two of the nineteen U-101 reports as of September 30,
                                                                              APPENDIX I
                                                                                   Page 2 of 2

            the reconciliation of the disbursements with the Regional Administrative
            Management Center (RAMC) in Paris, France for appropriation 72X1021 and
                                                                                                  -
                     commonly referred to the 122 Reconciliation.

In analyzing accrued expenditures we sometimes were required to analyze a sample item in
                                                                                                  -
conjunction with other obligations/commitments or               control numbers. Since
incrementally funds larger projects/programs, some projects/programs may have several earmark
control numbers under an obligation/commitment; or they may have several                          -
obligation/commitment      numbers representing       incremental     obligations/commitments.
Consequently, there were instances when we had to analyze the entire project/program in
conjunction with the particular sample item to determine whether the accrued expenditure was
accurately estimated and supported.

To obtain an understanding of the internal controls, we interviewed officials at
and reviewed flow charts, narratives and related source documents regarding the financial
reporting processes. Where problems were found. we verified to the extent practical. the causes
of the problems.                                                                                  -

In addition, we obtained management representation letter from cognizant Mission officials
containing essential assertions related to our audit objective.                                   -



                                                                                                  -



                                                                                                  -




                                                                                                  -



                                                                                                  -



                                                                                                  -
-                                                                                        APPENDIX II



-



-
                              Memorandum
-   To:                              L.

    From:                     Frank Young, Director,

-   Date:                     March 25, 1399

    Subject:                    Audit, of                 Accounting Station Fiscal
                              Year      Financial Data, Report No


             Mission has reviewed subject Draft Audit Report and our comments arc as
-   follows:

                             NO. 1: We recommend I                 develop and
    implement it plan and training       for Project       to enable Project
-   Officers to       prepare and document accrued expenditures.

    COMMENTS:                            concurs       this               We
    target completion of               and implementation of the plan and [raining
               April     1999. We anticipate having                          and
    the six client mission personnel by no later than Juiy 31, 1999.

                                           We recommend                    develop and
                   a plan to ensure that      oldest funded obligations arc liquidated
    first.

-                                     concurs with this recommendation,
                      will         and implement a plan no later than April 30,
    1999.       Prqjcct Accountants will be trained to always liquidate the
            obligation by no later than May 3      1999.       entire        for
          client posts will bc reviewed     May 31, 1999 to confirm that the oldest
             obligation has been liquidated first.

                                    the professional manner in which subject Audit was
    accomplished.



-



-
